                                                              O FFICE OF A UDIT S ERVICES , R EGION III
                                                                P UBLIC L EDGER B UILDING , S UITE 316
                                                                   150 S. I NDEPENDENCE M ALL W EST
                                                                             P HILADELPHIA , PA 19106
June 19, 2012

Report Number: A-03-12-00009

Mr. Frank Riccardi
Chief Compliance Officer
Virginia Commonwealth University Medical Center
P.O. Box 980471
Richmond, VA 23298-0471

Dear Mr. Riccardi:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Virginia Commonwealth University Medical Center
Incorrectly Billed Medicare for the Biological Drug Myozyme. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email at
Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-12-00009 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services
Page 2 – Mr. Frank Riccardi


Enclosure

Cc: Ms. Yvonna Ruff, Director, Part A Claims, Palmetto GBA, LLC

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare and Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




          VIRGINIA
 COMMONWEALTH UNIVERSITY
      MEDICAL CENTER
INCORRECTLY BILLED MEDICARE
  FOR THE BIOLOGICAL DRUG
          MYOZYME




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-03-12-00009
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Myozyme (alglucosidase alfa) is a biological drug used for the treatment of patients with Pompe
disease, a debilitating, progressive, and often fatal hereditary disorder with onset in infancy or
later in life. Providers bill Medicare 5 units of service for each single-use 50-milligram vial of
Myozyme. The recommended dose for Myozyme is 20 milligrams for each kilogram of body
weight. A patient weighing 100 kilograms (220 pounds) would require a recommended dose of
2,000 milligrams (40 vials). Therefore, billed units in excess of 200 (40 vials times 5 units per
vial) are likely to result in an overpayment.

In 2010, Lumizyme, a new formulation of alglucosidase alfa, was approved for the treatment of
patients with late onset of the disease. Providers bill Medicare 50 units of service for each
single-use 50-milligram vial of Lumizyme. Both Myozyme and Lumizyme are registered
trademarks for the biological drug alglucosidase alfa, manufactured by Genzyme Corporation, a
wholly owned subsidiary of Sanofi-aventis.

Title XVIII of the Social Security Act established the Medicare program to provide health
insurance for people aged 65 and over and individuals with disabilities or permanent kidney
disease. Part B of the Medicare program provides supplementary medical insurance for medical
and other health services, including outpatient services such as the injection of drugs. The
Centers for Medicare & Medicaid Services (CMS), which administers the program, contracts
with Medicare contractors to process and pay Medicare claims submitted for outpatient services.
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF) to process claims.

Providers should use the appropriate Healthcare Common Procedure Coding System (HCPCS)
code for the drug administered and report units of service in multiples of the units shown in the
HCPCS narrative description. CMS assigned HCPCS code J0220 for Myozyme, with a narrative
description of “injection, alglucosidase alfa, 10 mg [milligrams],” and HCPCS code C9277 for
Lumizyme, with a narrative description of “injection, alglucosidase alfa (Lumizyme), 1 mg
[milligram].”

During our audit period (January 1, 2010, through December 31, 2011), Virginia Commonwealth
University Medical Center (the Medical Center) received payments from Medicare totaling
$717,648 for 12 line items for Myozyme administered to one beneficiary. Of these 12 line items,
2 line items totaling $532,623 were each billed for 1,700 units. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims.

OBJECTIVE

Our objective was to determine whether the Medical Center billed and was correctly paid by
Medicare for the biological drug Myozyme.




                                                 i
SUMMARY OF FINDING

The two line items that we reviewed were incorrect. For each line item, the Medical Center
incorrectly billed Medicare for 1,700 units of service for Myozyme, rather than for 1,700 units of
service for Lumizyme, the formulation of the drug alglucosidase alfa actually administered. The
Medical Center used the incorrect HCPCS code and as a result, it received a total of $532,623 for
the two line items when it should have received only $48,208, an overpayment of $484,415. At
the time of our audit, these overpayments remained outstanding from the Medical Center.

RECOMMENDATIONS

We recommend that the Medical Center:

   •   refund to the Medicare contractor the $484,415 in identified overpayments and

   •   strengthen controls to ensure full compliance with Medicare requirements.

MEDICAL CENTER COMMENTS

In response to our audit inquiry, the Medical Center agreed with our finding and described the
action it planned to take to correct the errors. The Medical Center’s comments, excluding
attachments that provided technical support for the finding, are included as the appendix.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              The Medicare Program .......................................................................... 1
              Claims for Outpatient Drugs and Biologicals ....................................................... 1
              Virginia Commonwealth University Medical Center ........................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 2

FINDING AND RECOMMENDATIONS................................................................................ 3

          FEDERAL REQUIREMENTS ............................................................................... 3

          MEDICARE BILLING FOR MYOZYME AND LUMIZYME ...................................... 3

          INCORRECT HEALTHCARE COMMON PROCEDURE
            CODING SYSTEM CODE ........................................................................................... 4

          RECOMMENDATIONS .................................................................................................. 4

          MEDICAL CENTER COMMENTS ................................................................................ 4

APPENDIX

          MEDICAL CENTER COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Myozyme (alglucosidase alfa) is a biological drug used for the treatment of patients with Pompe
disease, a debilitating, progressive, and often fatal hereditary disorder with onset in infancy or
later in life. Providers bill Medicare 5 units of service for each single-use 50-milligram vial of
Myozyme. The recommended dose for Myozyme is 20 milligrams for each kilogram of body
weight. A patient weighing 100 kilograms (220 pounds) would require a recommended dose of
2,000 milligrams (40 vials). Therefore, billed units in excess of 200 (40 vials times 5 units per
vial) are likely to result in an overpayment.

In 2010, Lumizyme, a new formulation of alglucosidase alfa, was approved for the treatment of
patients with late onset of the disease. Providers bill Medicare 50 units of service for each
single-use 50-milligram vial of Lumizyme. 1

The Medicare Program

Title XVIII of the Social Security Act established the Medicare program to provide health
insurance for people aged 65 and over and individuals with disabilities or permanent kidney
disease. Part B of the Medicare program provides supplementary medical insurance for medical
and other health services, including outpatient services such as the injection of drugs. The
Centers for Medicare & Medicaid Services (CMS), which administers the program, contracts
with Medicare contractors to, among other things, process and pay claims submitted for
outpatient services. Medicare contractors use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF) to process claims.

Claims for Outpatient Drugs and Biologicals

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers must
use the appropriate Healthcare Common Procedure Coding System (HCPCS) 2 code for drugs
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. When a provider must discard the remainder of a single-use vial after administering
a portion of it to a Medicare patient, the Medicare program pays for the amount discarded as well
as the drug administered.

Virginia Commonwealth University Medical Center

Virginia Commonwealth University Medical Center (the Medical Center) is a 719-bed acute care
hospital located in Richmond, Virginia. The Medical Center is part of the Virginia



1
  Both Myozyme and Lumizyme are registered trademarks for the biological drug alglucosidase alfa, manufactured
by Genzyme Corporation, a wholly owned subsidiary of Sanofi-aventis. Biological drugs are substances made from
a living organism or its products that are used to prevent, diagnose, treat, or relieve symptoms of a disease.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Commonwealth University Health System. Palmetto GBA, LLC (Palmetto), is the current
Medicare contractor for the Medical Center.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medical Center billed and was correctly paid by
Medicare for the biological drug Myozyme.

Scope

During our audit period (January 1, 2010, through December 31, 2011), the Medical Center
received payments from Medicare totaling $717,648 for 12 line items for Myozyme administered
to one beneficiary. For 10 of the 12 line items, the Medical Center billed Medicare for 170 units
or less; for each of the remaining 2 line items the Medical Center billed Medicare for 1,700 units.

We limited our review to the two line items for which the Medical Center billed for 1,700 units
each and was paid $532,623, because the number of units billed was greater than the
recommended dose. We did not review the remaining 10 line items because the units billed were
consistent with the recommended dose.

We limited our review of the Medical Center’s internal controls to those that were applicable to
the selected payments because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork during April and May 2012 by contacting the Medical Center in
Richmond, Virginia, and Palmetto in Columbia, South Carolina.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    analyzed CMS’s National Claims History file to identify claims for injected drugs
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    identified two line items totaling $532,623 for Myozyme (HCPCS code J0220) billed by
        the Medical Center for unit counts (1,700 units for each line item) that appear to exceed
        the recommended dose;

   •    contacted the Medical Center to determine whether the billed units for the selected line
        items were correct and, if not, why the billed units were incorrect;




                                                 2
    •   reviewed patient medical records, specifically the physician orders and drug
        administration records, to verify whether each selected line item was billed correctly;

    •   coordinated the calculation of overpayments with the Medicare contractor; and

    •   discussed the results of our review with Medical Center officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATIONS

The two line items that we reviewed were incorrect. For each line item, the Medical Center
incorrectly billed Medicare for 1,700 units of service for Myozyme, rather than for 1,700 units of
service for Lumizyme, the formulation of the drug alglucosidase alfa actually administered. The
Medical Center used the incorrect HCPCS code and as a result, it received a total of $532,623 for
the two line items when it should have received only $48,208, an overpayment of $484,415. At
the time of our audit, these overpayments remained outstanding from the Medical Center.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 17,
section 90.2.A states: “It is also of great importance that hospitals billing for these products [drugs,
biologicals, and radiopharmaceuticals] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity … that was used in the care of the patient.”
Chapter 17, section 70, of the Manual states, “[w]here HCPCS is required, units are entered in
multiples of the units shown in the HCPCS narrative description. For example, if the description
for the code is 50 mg, and 200 mg are provided, units are shown as 4 ….” Further, chapter 1,
section 80.3.2.2, of the Manual states: “In order to be processed correctly and promptly, a bill
must be completed accurately.”

MEDICARE BILLING FOR MYOZYME AND LUMIZYME

Myozyme (alglucosidase alfa) is a biological drug used for the treatment of patients with Pompe
disease with onset in infancy or later in life. CMS assigned HCPCS code J0220 for Myozyme,
with a narrative description of “injection, alglucosidase alfa, 10 mg [milligrams].” Providers bill
Medicare 5 units of service (50 milligrams divided by 10 milligrams per unit) for each single-use
50-milligram vial of Myozyme.




                                                   3
Lumizyme is a formulation of alglucosidase alfa used for the treatment of patients with late onset
of Pompe disease. Effective January 1, 2011, CMS assigned HCPCS code C9277 for
Lumizyme, with a narrative description of “injection, alglucosidase alfa (Lumizyme), 1 mg
[milligram].” Providers bill Medicare 50 units of service (50 milligrams divided by 1 milligram
per unit) for each single-use 50-milligram vial of Lumizyme.

The recommended dose for both Myozyme and Lumizyme is 20 milligrams for each kilogram of
body weight. Providers administer multiple single-use vials during each patient treatment and
bill Medicare for each vial administered, including any waste. A patient weighing 100 kilograms
(220 pounds) would require a recommended dose of 2,000 milligrams (40 vials). For Myozyme,
the provider would bill Medicare for 200 units; for Lumizyme, 2,000 units. 3

INCORRECT HEALTHCARE COMMON PROCEDURE CODING SYSTEM CODE

For the two line items reviewed, the Medical Center used the incorrect HCPCS code, resulting in
overpayments totaling $484,415. For both line items, the Medical Center billed Medicare for
1,700 units of service using HCPCS code J0220 (Myozyme) rather than HCPCS code C9277
(Lumizyme), the formulation of alglucosidase alfa actually administered. As a result, the
Medical Center received payments totaling $532,623 for the two line items reviewed when it
should have received only $48,208, an overpayment of $484,415. At the time of our audit, these
overpayments remained outstanding.

RECOMMENDATIONS

We recommend that the Medical Center:

    •   refund to the Medicare contractor the $484,415 in identified overpayments and

    •   strengthen controls to ensure full compliance with Medicare requirements.

MEDICAL CENTER COMMENTS

In response to our audit inquiry, the Medical Center agreed with our finding and described the
action it planned to take to correct the errors. The Medical Center’s comments, excluding
attachments that provided technical support for the finding, are included as the appendix.




3
 Effective January 1, 2012, Medicare changed the narrative description for HCPCS code J0220 to “alglucosidase
alfa 10 mg, not otherwise specified,” and changed the code and the narrative description for HCPCS code C9277 to
HCPCS code J0221, “alglucosidase alfa 10 mg, (Lumizyme).”


                                                        4
APPENDIX
                       APPENDIX: MEDICAL CENTER COMMENTS




May 22, 2012

Mr. John Carlucci
Senior Auditor
Office of Audit Services, Region III
150 S. Independence Mall West
Philadelphia, PA 19105


Subject: Report Number A-03-12-00009


In response to our conversation and your letter of April 27, 2012, Virginia Commonwealth University
Health System (VCUHS) is in agreement with the over-payment of $484.415. Our records did not
support the billing of 1700 units of J0220 (Myozyme). The documentation reflects the administration
of 1700 mg (1 mg = 1 unit) of C9277 (Lumizyme) for services provided in 2011. I have also attached
the HCPCS Codebook from 2011 with instructions regarding C9277. Per your instructions, we have
begun the process to refund and submit corrected billing to the Region 11 MAC, Palmetto.

If you have any questions or if additional information is required, please contact my office at (804)
828-0500.


Sincerely,


Jill McCormack, Director
Compliance Services



Cc Linda B. McLaughlin, Director
Financial/Governmental Services


                                                                              an equal opportunity affirmative action university
